RECEPTION AND MEDICAL CENTER
DATE:2rM-AQ
INMATE INITIALS:^Z&S—

No.
L'
*• i

„

r fibs
t

l;(
!
\

LEGAL MAIL
Provided to Florida State.Prison on
^ I/OI to for mailing b^y[U-^Ay

»

<5
j

-I

IN THE
SUPREME COURT OF THE UNITED STATES

RUSSELL A. STODDARD
(Your Name)

fvrTP'f^l

m

VS.

STATE OF FLORIDA

•rj

Mil

— RESPONDE

pFiLED-

ON PETITION FOR A WRIT OF CERTIORARI "O FEB I 4 2020
SUPREMEnrwfp^^K

DISTRICT COURT OF APPEAL OF FLORIDA, FIFTH DISTRICT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

RUSSELL A. STODDARD
(Your Name)

DC# V03964

FtoftIPft STATE PftlSOW,Pft.Rn* ** ftno
(Address) -

RftXPQRD n&RxPfV

3AP83

(City, State, Zip Code)

(Phone Number)

received
FEB 2 4 2020
fuPREMF^.fffpRK

QUESTION(S) PRESENTED
1. DOES THE EIGHT AMENDMENT PROTECTION AGAINST CRUEL AND UNUSUAL
PUNISHMENT PROHIBIT A STATE FROM IMPOSING A PRISON SENTENCE THAT
EXCEEDS THE MAXIMUM PRISON SENTENCE ALLOWED UNDER STATE LAW?

,

; 2. DOES THE FOURTEENTH AMENDMENT RIGHT TO DUE PROCESS REQUIRE A
STATE TO COMPLY WITH THE STATE'S STATUTORY REQUIREMENTS FOR AN
ENHANCED SENTENCE BEFORE IMPOSING AN ENHANCED SENTENCE?
3. DOES THE FOURTEENTH AMENDMENT RIGHT TO DUE PROCESS REQUIRE AN
APPELLATE COURT TO ALLOW THE RECORD ON APPEAL TO BE SUPPLEMENTED
WITH DOCUMENTS FILED IN THE LOWER TRIBUNAL THAT ARE RELEVANT TO THE
ISSUE ON APPEAL, INCLUDING DOCUMENTS THAT ON THEIR FACE DEMONSTRATE
THAT THE LOWER TRIBUNAL'S FACTUAL FINDINGS AND THE RESULTING LEGAL
CONCLUSIONS WERE INCORRECT?

• _•

LIST OF PARTIES

W All parties appear in the caption of the case on the cover page.
. [ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
. petition is as follows:
r
,*•

:-

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
2
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT.....

5

CONCLUSION......................

6

INDEX TO APPENDICES
APPENDIX A
APPENDIX B

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

APPENDXyS

OPINION OF THE FIFTH DISTRICIT COURTOF APPEAL

ORDER DENYING THE RULE 3850 MOTION BY THE VOLUSIA COUNTY CIRCUIT
COURT WITH EXHIBITS
THE RULE 3,850 MOTION
MOTION TOSUPPLEMENT THE RECORD

ORDER OF THE FIFTH DISTRICT COURT OF APPEAL DENYING THE MOTION TO
SUPPLEMENT THE RECORD
THE DECEMBER 26, 2000 MOTION TO CORRECT AN ILLEGAL SENTENCE

MDEft DEWYIN6 MOTIO*

Em Bftwc

'

TABLE OF AUTHORITIES CITED
CASES

■ -

PAGE NUMBER

Echols v. Thomas, 33 F.3d 1277, 1279 (5th Cir 1994

5A

Heggs y State, 759 So. 2d 620 (Fla. 2000)

4B

Trapp v. State, 760 So. 2d 924, 928 (Fla. 2000)

4B

*,

STATUTES AND RULES
§921.0014 (2) Florida Statutes (1996)
§921.0016 Florida Statutes (1996)
§921.0016 (1) (c) Florida Statutes (1996)
Fla. R. Crim. P. 3.702 (d) (18) (a)

5A,5B.,5D
5B, 5D
4C
4C

Fla. R. Crim. P. 3.800 (a)

4A

Fla. R. Crim. P. 3.850

4B

Fla. R. App. P. 9.141 (2) (a)
OTHER
w

5F

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or’
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
5 or,
[x] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
/*. • ; *

The opinion of the seventh judicial circut court For volusia county court
appears at Appendix_®
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
IxJ is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:-------------------------------- , and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on____________
to and including____________ _
(date)
in Application No. __ A_______
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was October 15,2019
A copy of that decision appears at Appendix "A"
[ ] A timely petition for rehearing was thereafter denied on the following date:
_ Noyfewt*
, and a copy of the order denying rehearing
appears at Appendix ^
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including ____
(date) on ____;
(date) in
Application No. . _M_A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

EIGHTH AMENDMENT TO THE UNITED STATES CONSTITUTION
S^ALL NOT BE REQUIRED, NOR EXCESSIVE FINES IMPOSED
NOR CRUEL AND UNUSUAL PUNISHMENTS INFLICTED

FOURTEENTH AMENDMENT, SEC. 1,OF THE UNITED STATES
CONSTITUTION
ALL PERSONS BORN OR NATURALIZED IN THE UNITED STATES ANE
SUBJECT TO THE JURISDICTION THEREOF, ARE CITIZENS OF THE
UNITED STATES AND OF THE STATE WHEREIN THEY RESIDE. NO
STATE SHALL MAKE OR ENFORCE ANY LAW WHICH SHALL ABRIDGE
THE PRIVILEGES OR IMMUNITIES OF CITIZENS OF THE UNITED
STATES; NOR SHALL ANY STATE DEPRIVE ANY PERSON OF LIFE
LIBERTY, OR PROPERTY, WITHOUT DUE PROCESS OF LAW; NOR
DENY TO ANY PERSON WITHIN ITS JURISDICTION THE EQUAL
PROTECTION OF THE LAWS.

STATEMENT OF THE CASE

SEE STATEMENT OF THE CASE ON THE NEXT PAGES

:

*

Page 4A
STATEMENT OF THE CASE
The State charged Mr. Stoddard with First-Degree Premeditated Murder.
Subsequently, the State reduced the charge to Second-Degree Murder.

Mr.

Stoddard entered a guilty plea to the reduced charge. While Mr. Stoddard and the
;.~r prosecution presented a written plea agreement to the Trial Court, the Trial Court
never accepted the plea, either orally or by signing the plea agreement on the space
provided.1 Nevertheless, the Trial Court adjudicated Mr. Stoddard guilty of the
offense of Second-Degree Murder and sentenced him to a 40-year prison term (480
months).
On December 26, 2000, Mr. Stoddard filed a Fla. R. Crim. P. 3.800 (a) motion
to correct an illegal sentence.2 (the “December 26, 2000 Motion”)3 The December
26, 2000 Motion argued that the Trial Court should have used the 1994 sentencing
Guidelines to sentence Mr. Stoddard instead of using the 1995 sentencing
guidelines.

The 1994 sentencing guidelines were applicable because Mr.

Stoddard’s offense occurred during the time-period when the 1994 sentencing
guidelines remained in effect because the Florida Supreme Court found that in
:

-. adopting 1995 sentencing guidelines, the Florida Legislature violated the Florida

1
2
3

3.850 Motion-Exhibit “C” in the Appendix.
3.850 Motion-Exhibit “C” in the Appendix.
December 26, 2000 Motion-Exhibit “F” in the Appendix

Page 4B
constitution. Subsequently, the Florida legislature cured the constitutional defect
in the 1995 sentencing guidelines.

The period while the 1994 sentencing

guidelines remained in effect because the Florida Supreme Court had declared the
1995 sentencing guidelines unconstitutional until the constructional defect was
cured is known as the Heggs ’.window.4
The Postconviction Court denied the December 26, 2000 Motion because:
1. Mr. Stoddard’s sentence did not exceed the statutory maximum .5
2. The scoresheet error was harmless;6 and
3. Mr. Stoddard agreed to a specific term of imprisonment.7
On January 14, 2019, Mr. Stoddard filed a Fla. R. Crim. P. 3.850 motion
(“3.850 Motion”) alleging that his prison sentence was illegal because:

4 Heggs v State, 759 So. 2d 620 (Fla. 2000); Trapp v. State, 760 So. 2d 924, 928
. ' (Fla. 2000) (The window for relief under Heggs was limited to offenses
committed between October 1, 1995, and May 24, 1997.)
5 . Appendix “A” to the Postconviction Court's Order page 43 attached to this
petition as Appendix “B”.
6 Appendix “A” to the Postconviction Court's Order pages 43-44 attached to this
petition as Appendix “B”.
7 Appendix “A” to the Postconviction Court's Order page 44 attached to this
petition as Appendix “B”.

>

Page 4C
1. Mr. Stoddard’s sentence was an enhanced sentence that exceeded the
maximum permitted sentence under the 1994 Florida sentencing
.

guidelines; and

2, The Trial Court could not impose an enhanced sentence on Mr. Stoddard
because .the Trial Court did not comply with §921,0016 (1) (c) Florida
Statutes (1996) and Fla. R. Crim. P. 3.702 (d) (18) (A) by not:
a. Filing a singed written statement delineating the reasons for the
upward departure sentence; or
b. Filing a signed written transcript of the Court’s reasons for the
upward departure sentence that the Court articulated at the time the
sentence was imposed; or
c. Accepting or signing the plea agreement between the State and Mr.
Stoddard in the space provided. 8
On March 25, 2019, the Postconviction Court denied the 3.850 Motion
because Mr. Stoddard allegedly raised the same claim in the December 26, 2000
Motion.9

To support its findmg that Mr. Stoddard raised the same claim, in the

■ December 26, 2000 Motion as in the 3.850 Motion the Postconviction Court
8

9

3.850 Motion pages 2-6 attached to this petition as Appendix “C”.
Postconviction Court's Order pages 1 -2 attached to this petition as Appendix
“B”.

Page 4D
attached a copy of its order denying the raised the December 26, 2000 Motion, to
its order, but did not attach to its order the December 26, 2000 Motion.
Mr. Stoddard filed a timely notice of appeal of the Postconviction Court’s order to
the District Court of Appeal of Florida, Fifth District.
-U..

Subsequently, Mr. Stoddard filed a motion with the District Court of Appeal

of Florida, Fifth District to supplement the record on appeal to include the
December 26, 2000 Motion. Mr. Stoddard requested that the Court supplement the
record so that the Court could examine the December 26, 2000 Motion to
determine what claims and issues Mr. Stoddard raised in the December 26, 2000
Motion, instead of relying solely on the Postconviction Court’s mischaracterization
of the claims and issues Mr. Stoddard raised in December 26, 2000 Motion. The
District Court of Appeal of Florida, Fifth District denied Mr. Stoddard’s motion to
supplement the record.
On October 15, 2019, the District Court of Appeal of Florida, Fifth District
issued a per curiam decision without an opinion affirming the Postconviction
. Court’s March 25, 2019 denial of Mr. Stoddard’s Fla. R. Crim/.P. 3.850 motion
Mr. Stoddard filed a timely motion for rehearing that the District Court of Appeal
of Florida, Fifth District denied on November 11, 2019. The District Court of
Appeal of Florida, Fifth District issued its mandate on December 16, 2019.

Page 4E
This petition seeks a writ of certiorari directed to the District Court of Appeal
of Florida, Fifth District decision affirming the Postconviction Court’s March 25

5

2019 denial of Mr. Stoddard’s Fla. R. Crim. P. 3.850 motion.

r

v

*.

:

:

REASONS FOR GRANTING THE PETITION

SEE REASONS FOR GRANTING THE PETITION ON THE NEXT PAGES

:

Page 5A
REASONS FOR GRANTING THIS PETITION
1. Mr. Stoddard’s right under the Eight Amendment against cruel and
unusual punishment was violated when the Trial Court imposed a
prison sentence on Mr. Stoddard that exceeded the maximum prison
sentence allowed under Florida law.
A sentence violates the cruel and unusual punishment clause of the Eight
Amendment to the United States Constitution if it exceeds the statutory maximum.1
There is a dispute between Mr. Stoddard and the State over whether Florida law
required the Trial Court to use the 1994 sentencing guidelines or the 1995
sentencing guidelines in sentencing Mr. Stoddard.
However, regardless of which sentencing guideline was appropriate, Mr.
Stoddard’s 40-year prison sentence violated the cruel and unusual punishment
clause of the Eight Amendment to the United States Constitution because the
sentence exceeded the statutory maximum prison Mr. Stoddard was subject to
under both the 1994 and 1995 sentencing guidelines.
Both the 1994 and the 1995 sentencing guidelines provide for the calculation
of a recommended sentence based on the total sentencing points. A trial court may
deviate up or down from the recommended sentence by 25 percent.2 (The
“Permitted Prison Sentence Range”)

]
2

Echols v. Thomas, 33 F.3d 1277, 1279 (5th Cir 1994)
§921.0014 (2) Florida Statutes (1996)

Page 5B
Before a trial court can impose a prison sentence that is an upward departure
from the Permitted Prison Sentence Range, the trial court must find the existence
. . of facts that constitutes one or more aggravating factor(s).3
The trial court must justify its reason(s) for imposing a prison sentence that
.,

is an upward departure from the Permitted Prison Sentence Range in a written
statement that is signed by the sentencing judge and filed with the court. In the
alternative, the sentencing judge must file with the court a signed transcript of the
sentencing hearing in which the sentencing judge orally announced the reasons for
the upward departure.4
In Mr. Stoddard’s case, this procedure was not followed. Even though Mr.
Stoddard received an upward departure sentence, the sentencing judge did not file
with the Trial Court a written statement stating the reasons for the upward
departure sentence or file with the Trial Court a signed transcript of the sentencing
hearing containing the reasons for the upward departure sentence.
Because Mr. Stoddard’s sentencing judge failed to comply with the statutory
prerequisite required to impose an upward departure prison sentence, Mr.
Stoddard’s upward departure sentence is illegal.

3
4

§921.0014 (2) Florida Statutes (1997)
§921.0016 Florida Statutes (1996)

Page 5C
Because Mr. Stoddard’s upward departure sentence exceeded the maximum that
the Trial Court could impose without complying with certain legal prerequisites
mandated by Florida law—that the Trial Court did not do—it was an illegal
sentence.
Because Mr..-Stoddard’s upward departure ,sentence was illegal; the sentence
violated the cruel and unusual punishment clause of the Eight Amendment to the
United States Constitution. To remedy this violation, the Court should grant Mr.
Stoddard a writ of certiorari directed to the decision of the Fifth District Court of
Appeal of Florida.
2. When a trial court imposes an upward departure sentence, the
Fourteenth Amendment right to due process mandates that the trial
court comply with all of a state’s statutory requirements for such a
sentence.
There is a dispute between Mr. Stoddard and the State over whether Florida law
required the Trial Court to use the 1994 sentencing guidelines or the 1995
sentencing guidelines in sentencing Mr. Stoddard.
. However, regardless of which sentencing guideline was appropriate, both the 1994
and the 1995 sentencing guidelines provide for the calculation of a recommended
sentence based on the total sentencing points. A trial court may

Page 5D
deviate up or down from the recommended sentence by 25 percent.5 (The
“Permitted Prison Sentence Range”)
Before a trial court can impose a prison sentence that is an upward departure from
the Permitted Prison Sentence Range, the trial court must find the existence of
facts that constitutes one or more aggravating factors).6 ..

o - i::

Florida law requires a trial court to set forth its reason(s) for imposing a prison
sentence that is an upward departure from the Permitted Prison Sentence Range in
a written statement that is signed by the sentencing judge and filed with the court.
In the alternative, the sentencing judge may file with the court a signed transcript
of the sentencing hearing in which the sentencing judge orally announced the
reasons for the upward departure sentence.7
In Mr. Stoddard’s case, the Trial Court did not follow the proscribed procedure.
The sentencing judge did not file with the Trial Court a written statement stating
the reasons Mr. Stoddard’s upward departure sentence or file with the Trial Court a
signed transcript of the sentencing hearing containing the reasons for Mr.
..

Stoddard’s upward departure sentence. , .

6
7

§921.0014 (2) Florida Statutes (1996)
§921.0014 (2) Florida Statutes (1997)
§921.0016 Florida Statutes (1996)

Page5E
The failure of Mr. Stoddard’s sentencing judge to comply with the statutory
prerequisites required for the Trial Court to impose on Mr. Stoddard an upward
departure prison sentence derived Mr. Stoddard of his right to due process under
the Fourteenth Amendment to the United States Constitution.
.- . Because the Trial Court violated Mr. Stoddard’s due process rights"under the;v
Fourteenth Amendment, the Court should grant Mr. Stoddard a Writ of certiorari
directed to the decision of the Fifth District Court of Appeal of Florida.
3. The right to due process under the Fourteenth Amendment requires an
appellate court to allow the record on appeal to be supplemented with
documents filed in the lower tribunal that are relevant to the issue on
appeal, including documents that on their face demonstrate that the
lower tribunal’s factual findings and the resulting legal conclusions
were incorrect.
In this case, the Postconviction Court, relying on the doctrines of res judicata,
collateral estoppel, and law of the case, denied Mr. Stoddard’s Fla. R. Crim. P.
3.850 Motion, (the “3.850 Motion”). 8 To justify its decision, the Postconviction
Court incorrectly found that Mr. Stoddard had raised the same issue in a motion to
correct an illegal sentence filed on December 26, 2000.9 (the “December 26, 2000
Motion”). However, Mr. Stoddard did not raise the same issue he raised in the
3.850 Motion in the December 26, 2000 Motion.

9

3.850 Motion-Exhibit “C” in the Appendix.
Exhibit “F” in the Appendix.

Page 5F
Because the Postconviction Court summarily denied the 3.850 Motion
without an evidentiary hearing, the record on appeal that the Clerk of the Trial
Court was required to transmit to the Fifth District Court of Appeal is restrict to
certain items.
Fla. R. App. P. 9.141 (2) (a) states:
When a motion for postconviction relief under rules 3.800(a),
3.801, 3.802, 3. 850, or 3.853 is granted or denied without an
evidentiary hearing, the clerk of the lower tribunal shall
electronically transmit to the court, as the record, the motion,
response, reply, order on the motion, motion for rehearing,
response, reply, order on the motion for rehearing, and
attachments to any ofthe foregoing, together with the certified
copy of the notice ofappeal.
Because Fla. R. App. P. 9.141 (2) (a) this rule does not require the Clerk of the
Trial Court to include the December 26, 2000 Motion in the record on appeal and
because the December 26, 2000 Motion was not attached as an exhibit to any of
the documents listed in Fla. R. App. P. 9.141 (2) (a), the December 26, 2000
Motion was not included in the record on appeal sent by the Clerk of the Trial
Court to the Fifth District Court of Appeal.
To support its incorrect finding that Mr. Stoddard had previously raised the same
issue in the December 26, 2000 Motion, the Postconviction Court attached to its

Page 5G
order denying the 3.850 Motion a copy of its order denying the December 26, 2000
Motion. The order on the December 26, 2000 Motion mischaracterized the issue
Mr. Stoddard raised in the December 26, 2000 Motion.
In order to demonstrate to the Fifth District Court of Appeal that the Petitioner did
not. raised the same issue in the December 26, 2000 Motion that he raised in the
3.850 Motion, Mr. Stoddard moved the Fifth District Court of Appeal to allow him
to supplement the record on appeal to include the December 26, 2000 Motion.10
The Fifth District Court of Appeal denied the motion.11
As a result of the denial of Mr. Stoddard’s motion to supplement the record on
appeal, the record before the Fifth District Court of Appeal did not contain a copy
of the December 26, 2000 Motion.
Without the December 26, 2000 Motion being included in the record on appeal,
Mr. Stoddard could not argue to the Fifth District Court of Appeal that the
Postconviction Court was incorrect when it found that Mr. Stoddard raised the
same issue in the December 26, 2000 Motion that Mr. Stoddard raised in the 3.850
Motion.

10
11

See Motion to Supplement the Record-Exhibit “D” in the Appendix
See Order Denying Motion to Supplement the Record-Exhibit “E” in the
Appendix

*“•!

'

Page 5H
Thus, Mr. Stoddard was effectively denied the right to argue and
demonstrate to the Fifth District Court of Appeal that the Postconviction Court was
....incorrect, in its finding that Mr. Stoddard had raised the same issue in the
December 26, 2000 Motion that he raised in the 3.850 Motion.
: Mr. Stoddard’s right to. due process under, the Fourteenth Amendment Was:
violated, because he was prevented by the Florida rules governing a record on
appeal and the actions of the Fifth District Court of Appeal from having a copy of
the December 26, 2000 Motion included in the record on appeal.
Because Mr. Stoddard’s due process rights under the Fourteenth Amendment were
violated, the Court should grant Mr. Stoddard a writ of certiorari directed to the
decision of the Fifth District Court of Appeal of Florida.

•v

.. *.

•

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

RUSSELL A, STODDARD
Date:

, IC^ QjSXfr

